<html>
<title> - TURKEY POST-REFERENDUM: INSTITUTIONS AND HUMAN RIGHTS</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








115th Congress                               Printed for the use of the
1st Session            Commission on Security and Cooperation in Europe
_______________________________________________________________________

 
                     TURKEY POST-REFERENDUM:
                 INSTITUTIONS AND HUMAN RIGHTS
             






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                       MAY 2, 2017
                       
                       
                       
                       
                       
                       
                       Briefing of the
          Commission on Security and Cooperation in Europe
_______________________________________________________________________
                      
                      Washington: 2017
                      
                      
                      
                      
                      
                      
                      






               Commission on Security and Cooperation in Europe
                         234 Ford House Office Building
                               Washington, DC 20515
                                  202-225-1901
                              <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781b0b1b1d38151911145610170d0b1d561f170e">[email&#160;protected]</a>
                              http://www.csce.gov
                                 @HelsinkiComm





                  Legislative Branch Commissioners

      HOUSE                                             SENATE  
CHRISTOPHER H. SMITH, New Jersey               ROGER WICKER, Mississippi,
 Co-Chairman                                     Chairman
ALCEE L. HASTINGS, Florida                     BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                    JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                      CORY GARDNER, Colorado
STEVE COHEN, Tennessee                         MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                 JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                       THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                      TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                          SHELDON WHITEHOUSE, Rhode Island
           
           
                          Executive Branch Commissioners

                             DEPARTMENT OF STATE
                             DEPARTMENT OF DEFENSE
                             DEPARTMENT OF COMMERCE
                             
                                      (III)


 ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE
 
 

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


 ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE



    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.





                    TURKEY POST-REFERENDUM:
                 INSTITUTIONS AND HUMAN RIGHTS
                 
                              May 2, 2017






                                                                                      Page
                              PARTICIPANTS

Hon. James P. McGovern, Co-Chair, Tom Lantos Human Rights Commission ...............     1
Everett price, Policy Advisor, Commission on Security and Cooperation in Europe.....     2
Dr. Beata Martin-Rozumilowicz, Regional Director for Europe and Eurasia, 
    International Foundation for Electoral Systems .................................     4
Dr. Henri Barkey, Director, Middle East Program, Wilson Center .....................     7
Nate Schenkkan, Project Director, Nations in Transit, Freedom House ................    10
Dr. Ebru Erdem-Akcay, Turkish Political Scientist...................................    13

                                APPENDIX

Prepared Statement of Nate Schenkkan, Project Director, Nations in Transit, Freedom 
  House ............................................................................    23
Prepared Statement of Dr. Ebru Erdem-Akcay, Turkish Political Scientist ............    26
Elections in Turkey: 2017 Constitutional Referendum--Frequently Asked Questions.....    28


                                  (IV)













                                    TURKEY POST-REFERENDUM:
                                INSTITUTIONS AND HUMAN RIGHTS
                                           ----------                              

                                          MAY 2, 2017



                   Commission on Security and Cooperation in Europe 
                                        Washington, DC                       




    The joint briefing with the Tom Lantos Human Rights Commission was 
held at 10:30 a.m. in room 2255, Rayburn House Office Building, 
Washington, DC, Hon. James P. McGovern, Co-Chair, Tom Lantos Human 
Rights Commission and Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe, moderating.
    Panelists present: Hon. James P. McGovern, Co-Chair, Tom Lantos 
Human Rights Commission; Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe; Dr. Beata Martin-Rozumilowicz, 
Regional Director for Europe and Eurasia, International Foundation for 
Electoral Systems; Dr. Henri Barkey, Director, Middle East Program, 
Wilson Center; Nate Schenkkan, Project Director, Nations in Transit, 
Freedom House; and Dr. Ebru Erdem-Akcay, Turkish Political Scientist.

    Mr. McGovern. Well, good morning, everybody. I'm Congressman Jim 
McGovern, co-chair of the Tom Lantos Human Rights Commission. And along 
with my colleague, the other co-chair, Congressman Hultgren, we want to 
welcome you all to this briefing on institutions and human rights in 
Turkey in the aftermath of the attempted coup of July 2016, and the 
recent vote to approve major changes to the Turkish constitution.
    I also want to welcome our distinguished panelists, and I want to 
thank them for sharing their expertise with us today. I thank the 
Helsinki Commission for co-hosting this briefing, and for its important 
work over many years promoting democracy and human rights throughout 
the OSCE region.
    So what to do about Turkey, a NATO ally that has turned toward 
authoritarianism? We are here this morning because we are all in need 
of answers to that question. Former prime minister and current 
President Erdogan has been in power since 2003. And during his time in 
office, he has steadily increased his power over the military, 
something that those of us who care about human rights usually welcome. 
But in August of 2014 he won Turkey's first-ever popular election for 
president, and there is no doubt that his party, the ruling AKP, has a 
large popular base.
    Yet, for at least the last 10 years, most observers agree that 
democracy has lost ground to creeping authoritarianism. Turkey is an 
example of the use of democratic means to pursue anti-democratic ends. 
To be more precise, it's the case of the use of elections and 
parliamentary majorities to consolidate the power of the executive, 
reduce the independence of the judiciary, stigmatize and criminalize 
the opposition and the media, restrict protest, and generally undermine 
the rule of law.
    One morning, the folks who don't support the dominant party wake up 
and realize that the democracy they thought they were living in has 
turned into an authoritarian nightmare. It doesn't happen overnight. It 
happens over years. In Turkey, last summer's coup attempt served as an 
excuse for the government to intensify repression. In the last nine 
months, human rights abuses have occurred on a massive scale that has 
suddenly made the deterioration of democracy very evident and very 
visible to the entire world.
    As many as 130,000 public workers have been fired, 45,000 people 
have been arrested, hundreds of journalists have had their credentials 
revoked, and dozens of media outlets have been shut down--all without 
due process or recourse. Thousands of businesses, schools and 
associations have been closed. Human rights groups have documented 
intimidation, ill-treatment and torture of those in police custody. And 
in the ongoing conflict with the Kurds in southeast Turkey, we on the 
Commission have received reports of allegations of war crimes committed 
against civilians.
    In a country that's a NATO ally, this is a mind-boggling record. 
Most analysts of the April referendum have concluded that the 
constitutional changes further weaken the independence of the justice 
system and reinforce Erdogan's power. Thousands more people have been 
purged from the civil service and the military since that vote took 
place. Victims of the government's abuses who have spoken with us--
journalists, doctors, lawyers, judges, and scholars--are searching for 
what to do next to protect themselves and others. And all of this is 
taking place against the backdrop of the conflict with the Kurds, the 
ongoing wars in Syria and Iraq, and the fight against ISIS--conflicts 
in which Turkey's interests and those of the United States and Europe 
do not always coincide.
    I think it is clear that we are at a crossroads in the U.S.-Turkey 
bilateral relationship. Turkey is a strategically important country, 
but I do not believe that repressive regimes that consistently violate 
fundamental human rights make for reliable allies, nor do I think 
massive repression is effective for countering extremism. It more 
likely feeds it. So I'm eager to hear what our panelists think the U.S. 
Government, and particularly the Congress, may be able to do to help 
get Turkey back on track and, in the meantime, to protect those who are 
getting trampled by the Erdogan government.
    So I now turn this over to Everett Price, who's a policy advisor at 
the Helsinki Commission, who will moderate the briefing and introduce 
our panelists, and lead the discussion. Thank you.
    Mr. Price. Thank you very much, Congressman McGovern.
    Good morning. I want to welcome everyone to this congressional 
briefing titled, ``Turkey Post-Referendum: Institutions and Human 
Rights,'' co-hosted by the Tom Lantos Human Rights Commission and the 
Commission on Security and Cooperation in Europe, otherwise known as 
the U.S. Helsinki Commission.
    We have the privilege today to hear from an expert panel that will 
update us on the state of democratic institutions and human rights in 
Turkey. The timing of this briefing is significant. Two weeks ago, 
Turkey had a constitutional referendum to fundamentally alter its form 
of government from a parliamentary system to a presidential one, and 
confer broad powers on the so-called executive presidency that will 
come into effect in 2019. Two weeks from now, Turkish President Recep 
Tayyip Erdogan will travel here to Washington, where he is scheduled to 
hold his first-ever meeting with President Donald Trump. Bookended by 
these two events, it is a critical time to evaluate U.S.-Turkish 
relations.
    How do we assess the events that have transpired, and how should 
that influence the way we proceed? Today we ask those questions 
specifically of Turkey's waning respect for democratic institutions and 
human rights. The referendum two weeks ago was held under a protracted 
state of emergency, in a media environment muted by intimidation and 
self-censorship, and amidst an ongoing war in the southeast that has 
displaced at least half a million people.
    Before the vote, international observers and opposition groups 
raised significant concerns about the content of the amendments and the 
context for the vote. Afterwards, they questioned last-minute changes 
to the tallying process, where less than 1.4 million votes made the 
difference between the yes and no camps. President Erdogan dismissed 
these concerns out of hand, and scolded international observers, 
telling them to, quote, ``know their place.''
    Our panel's extremely well suited to help us understand what has 
become of Turkish democracy, why that matters, and how the U.S. should 
respond. Our first expert is Dr. Beata Martin-Rozumilowicz, the 
regional director for Europe and Eurasia at the International 
Foundation for Electoral Systems, or IFES. She will discuss the conduct 
of the constitutional referendum, drawing off her extensive experience 
in the field of election observation. From 2009 to 2016, she served as 
the deputy director and then director of the election department for 
the Organization for Security and Cooperation in Europe's Office for 
Democratic Institutions and Human Rights, known as ODIHR. It was the 
preliminary report for ODIHR's international referendum observation 
mission in Turkey that drew President Erdogan's ire last month.
    Next we'll hear from Dr. Henri Barkey, director of the Middle East 
program at the Woodrow Wilson International Center for Scholars, and 
the Bernard L. and Bertha F. Cohen professor at Lehigh University. Dr. 
Barkey is a renowned expert in Turkish affairs. And we have asked him 
to help us understand the changes that are taking place to Turkey's 
governing institutions, particularly as they impact the rule of law and 
human rights.
    Our third panelist is Mr. Nate Schenkkan, project director for the 
Nations in Transit Initiative at Freedom House, a research project on 
democracy in the 29 formerly communist countries from Central Europe 
and Central Asia. Mr. Schenkkan has deep expertise in Turkey and the 
broader Eurasian region, where he has dedicated much of his time to 
focusing on democratic institutions and human rights. Today he will 
give us a sense for Turkey's media environment and civil society 
sector--two critical pillars of a democratic society.
    Last, but certainly not least, we'll hear from Dr. Ebru Erdem-
Akcay, a political scientist and Turkey analyst. In early 2016, she 
signed a peace petition, along with a couple thousand other Turkish 
scholars, calling for a peaceful resolution of the conflict in Turkey's 
Kurdish-dominated regions. She will share with us her experience and 
that of her academic colleagues, who have come under overwhelming 
official and social pressure for the stand that they took for peace.
    We have much to discuss, and I want to make sure we have plenty of 
time to open the floor to questions after the interventions by our 
panel. So, without further ado, I will turn it over to Dr. Martin-
Rozumilowicz.
    Dr. Martin-Rozumilowicz. Thank you very much. Good morning to 
everyone. ``Hos geldiniz.'' And thank you to the U.S. Helsinki 
Commission, and especially to the Tom Lantos Human Rights Commission 
for hosting what I consider to be a very timely event on a very 
important country.
    I'm here representing IFES, the International Foundation for 
Electoral Systems, which, as many of you may know, is a nonpartisan 
organization better known as IFES. And we worked in over 145 countries 
to support citizen rights to participate in free and fair elections, 
with the understanding that credible elections are really the 
cornerstone of a healthy democracy, and that enabling all persons to 
exercise their basic human rights in how they are governed is one of 
the most fundamental aspects of democratic rule.
    My background with the OSCE ODIHR, I've been involved with Turkish 
elections as far back as 2009, specifically with the 2011, 2014, and 
2015 elections. But today I would like to primarily draw upon the 
reports of various observers--both the OSCE ODIHR, the Parliamentary 
Assembly of the Council of Europe, the Venice Commission, and others in 
their evaluation of this process. IFES does not currently have 
activities in Turkey, other than activities with Syrian refugees in the 
south of the country, but it's very much our hope that more extensive 
work in the area of democratic governance is something that will be on 
the cards in the future.
    As many of you will know, previous to this referendum in April the 
Turkish Government was based on the 1982 Constitution, which really 
defined Turkey as a parliamentary republic with the executive power 
vested in the Council of Ministers, headed by a prime minister. And 
this involved a legislature of 550 representatives in which the latest 
iteration represented four political parties within the Turkish space. 
However, over the last decade, the issue of transformation of the 
constitutional order had been discussed quite widely, both in the 2011 
and the 2014 elections.
    The AK Parti had already transmitted their viewpoint that it would 
be beneficial to the country to transform to a presidential type of 
government. And as of December, there was a very quick process in which 
those amendments were put through the parliament. Many of the HDP 
deputies were in jail at the time, so I'm not sure that there was 
really a full-bodied discussion. But on 11 of February, the Supreme 
Board of Elections announced that the referendum would take place on 
the 16th of April. So between December, when those amendments were 
first tabled, and February, when the referendum was announced, it was a 
very short process to get these amendments put forward.
    Those 18 amendments affected 72 articles of the constitution, and 
they were voted on as a single package, which is really contrary to 
international good practice for referenda. These changes will bring 
about a change of the present parliamentary system, abolishing the 
office of the prime minister, transferring some of the parliamentary 
oversight functions to an executive presidency, increasing the number 
of seats in the parliament to 600, and empowering the president to 
appoint some high-level positions in the judiciary. Now, this package 
of amendments was analyzed by the Venice Commission, which is the, I 
would say, main body in Europe in terms of legal reform. And it was 
criticized as not having the necessary checks and balances in place to 
prevent possible authoritarianism.
    But beyond that, there were other concerns expressed with the 
background to which the referendum took place in. One of the main 
aspects was the state of emergency, which continued and which was seen 
as restricting certain fundamental freedoms in the process of the 
referendum; also ongoing security operations in the southeast of the 
country that resulted in several thousands of people fleeing their 
homes. And this really led to questions as to whether conditions were 
in place to permit a really democratic process to take place in voting 
on this referendum.
    I would also add, as background, that none of the proposed 
amendments were featured on the ballot, so voters were simply asked to 
vote for a yes or no option, with no detail on what they were voting 
for. And as international observers also commented, there was an un-
level playing field, with unequal opportunities in order to be able to 
campaign on either of those positions. This included a lack of 
impartial information to voters about key aspects of the reform 
process. I would note also that civil society organizations were not 
able to participate fully in that referendum process, fundamental 
freedoms essential to democratic process were often curtailed, and 
observers also noted, from their quantitative analysis of the media 
framework, that one side really dominated the referendum in the media 
space. And then lastly, I would mention that latent changes in the 
counting process removed important safeguards.
    And so I'd like to unpack a few of those aspects specifically with 
regard to the legal framework, the election administration, and a 
little bit about the referendum day process. One of the aspects of the 
legal framework was that it was really based on election legislation 
and not legislation specific to referenda, which meant that much of 
what was implemented was based on regulations and instructions issued 
by the state board of elections, but the framework was really 
inadequate for a referendum process as such, as was judged that way by 
key international organizations.
    The use of emergency decrees particularly in the referendum process 
was judged to be inappropriate. And in particular appeals lodged by CHP 
members to the parliament, the Constitutional Court decided that it 
does not have jurisdiction to consider appeals of emergency decrees, 
which thus effectively barred any challenges to the referendum-related 
decrees through any kind of legal process. I would also add that key 
legal framework recommendations that have been made in past elections 
had also not been addressed prior to this referendum, including those 
on suffrage rights, issues of campaign finance, lack of judicial 
review, and on the rights of observers.
    In terms of the actual administration of the election, observers 
who were on the ground judged it to have been relatively well-
administered by four levels of election body. However, they noted that 
the election boards lacked transparency, that often the board sessions 
were closed for the public and for observers, and that only a limited 
number of those decisions were published in the public domain. There 
was also a very large scale turnover for election administration 
following the attempted coup in July 2016. Three of the SBE members 
were changed, 221 lower-level election chairpersons, who were all 
judges, were also replaced following their dismissals.
    And one other point that I would underscore is that the law does 
not envisage an opportunity for balanced representation for the 
proponents and opponents in a referendum process within the referendum 
administration. And this is something that is really recommended by 
good international practice. So the election administration was very 
much based on the election law, which meant that political parties 
gained representation on an observer status basis, but the various 
sides that were arguing the referendum did not have proper 
representation in the election administration.
    Regarding voter registration, in case some of you are interested, 
more than 58 million voters were registered to vote, including 2.9 
million voters abroad. Voters were able to verify their entry in the 
voter list and to request changes. However, many who had to flee their 
residences in the provinces were affected by security threats and faced 
difficulties with their registration. And many international observers 
were informed that some of them were not able to vote.
    A few words about the campaign for the referendum. The law does not 
provide for broad stakeholder participation, as I mentioned. To 
participate in the referendum, one had to be a political party 
registered with the Supreme Court chief prosecutor's office, and have 
an organizational structure in at least half of the provinces and one-
third of the districts. These eligibility criteria unduly limited 
political pluralism. And as well, following an SC CPO investigation, 19 
political parties that had been eligible to compete in November 2015 
were found to be ineligible for the purpose of this referendum.
    The campaign framework was restrictive. The campaign was found to 
be imbalanced, due to the active involvement of the president and 
several leading national officials, as well as many local public 
officials in the yes campaign. And I would just note here that under 
the constitution--the previous constitution--a president was required 
to remain nonpartisan and perform his duties without bias.
    There was also observed obstruction of efforts of several political 
parties and also civil society organizations, to the extent that they 
were able to get involved, to support the no campaign, as well as noted 
misuse of administrative resources in the process. And supporters of 
the no campaign faced a number of undue limitations with regard to 
their freedom to campaign, and sometimes suffered physical attacks. A 
high number were arrested, most often on charges of organizing unlawful 
public events or insulting the president. And in numerous cases, no 
supporters faced police intervention and violent scuffles at their 
events.
    Lastly, I would just touch upon the issue that the law does not 
provide for international and nonpartisan observation, either from the 
international community or civil society. The efforts of political 
parties to observe the process varied, and significantly limited their 
ability to observe efforts to due to fear of repression. I would also 
note that following the attempted coup 1,583 civil society 
organizations were dissolved. And I'm sure my other colleagues will be 
talking about this in more detail.
    And then just for the referendum day proper, it was noted by 
observers to have proceeded in an orderly and efficient manner, 
although they only did observe in a limited number of polling stations. 
They did note that some observers were impeded in their observation, 
especially during the voting and opening, when access was either not 
granted or limited. Police presence was widely reported, both in and 
outside polling stations. And in some cases, police were checking 
voters' identification documents before granting them access to the 
polls, which is really not within their purview to be doing.
    And I would also underscore a late instruction issued by the state 
board of elections, which significantly changed vote--the ballot 
validity criteria. And this undermined an important safeguard and 
contradicted the law. But in essence, the SBE, during the referendum 
day, issued two instructions--to consider ballots improperly stamped by 
the ballot board commission and those without a ballot board control 
stamp as valid. And this was given after the counting of votes had 
already commenced. And so this variable approach means that it's very 
unclear to what level certain ballots which may have been considered 
valid were made invalid, and vice-versa, which also adds complexity to 
the referendum process.
    The final result that was announced was 51.3 in favor of the yes 
vote. But many of these aspects that I have mentioned in the eyes of 
the international observer community have caused questions to be asked 
about the fairness and the democratic fundament of this referendum 
process. Thank you very much.
    Mr. Price. Thank you.
    Dr. Barkey. Yeah. Thank you for the Helsinki Commission, the Tom 
Lantos Commission, to invite me.
    And thanks for Congressman McGovern, who was here earlier.
    What I will talk about is the impact of the constitutional changes 
on the political system and also look at some of the issues regarding 
the judicial system in Turkey. Let me start with the--you heard some of 
the changes, I'm not going to repeat them--in terms of what the new 
constitution includes. But this is a constitution, now it's been 
accepted, that was tailor-made for Erdogan.
    When you look at all the details--I mean, this is designed to 
essentially install a one-person, one-man rule in Turkey for a very, 
very long period of time. And it doesn't allow for any--really any 
organized opposition. But the most important thing that it does, is 
that it completely obliterates the concept of the separation of powers. 
There is no longer separation of powers. All power--all judicial power, 
all legislative power, and all the executive power now is in the hands 
of one man.
    People have made a lot of fun of the fact that Erdogan built 
himself a 1,000-room palace in Ankara. But in fact, he already was 
planning these changes because Erdogan is not going to waltz with his 
wife in the big palaces like Versailles, et cetera. No, this is to 
concentrate all the executive and all powers in one building, so that 
everybody will be at his command.
    One of the things that this does is, it not only it eliminates the 
prime ministership, but it makes all the Cabinet members--he appoints 
all the Cabinet members, whereas in the past Cabinet members came from 
parliament. And so the Cabinet members have no responsibility to 
parliament. He hires them and can fire them, as some people have talked 
about here. And at the same time, he also appoints all the top-level 
bureaucrats--undersecretaries of all the ministries. Now, you can say 
also in the United States the president has this power, except that we 
have a confirmation process and Congress has the right to--the Senate 
in this case--has the right to question the nominees. The top level of 
the bureaucracy will be appointed politically.
    Actually today, Erdogan, who was supposedly an impartial 
president--well, he never was--now is officially a member of the party. 
And he's going to become the head of the party. So the president is not 
only leader of the country, but he's also the leader of his political 
party, which means that all parliamentary members are also ultimately 
responsible to him. In other words, he will decide who can become a 
member of parliament or not. So in effect the parliament, which already 
has now diminished powers, will--individual members, at least, from his 
own party--will be determined by him. So, if you cross the president, 
you can be sure that in your next election you will not be a candidate 
again.
    So parliament doesn't have the right anymore to question Cabinet 
members. You can send--I mean, in the old days you could have formal 
questions in parliament, or you could send formal requests for answers. 
Now you can write to them, but whether or not a Cabinet member decides 
to respond to you depends on his or her whim. Which means that the only 
parliament has been completely denuded from power. There are also a few 
gems in the constitutional changes as well.
    First of all, people think that this constitution limits Erdogan to 
two terms, starting in 2019. Well, in fact, there's a loophole. The 
loophole says that if in the second term of the presidency national 
elections are called--which a president can do that, of course--then 
the second term is counted as invalid in terms of the term limits. The 
president can run for a third term. So imagine for a moment that 
Erdogan wins a first term in 2019, serves five years, has another 
election, wins again. On the fourth year of his second term, he 
suddenly decides he wants to have parliamentary elections. So he will 
have served nine years. Let's say he wins again. He will then be able 
to serve another five years.
    And in fact, he's going to be able to run for 14 years after 2019. 
If you do the math, until 2033, which means that he'll have been in 
power nonstop for 30 years, from 2003 onwards. This is a little bit of 
a--you know, he's trying to show that he's going to be the most 
consequential leader, which he will be, in Turkey since Ataturk. And 
even, in his mind, probably more than Ataturk.
    So he plans to be there until 2033. But to me, actually the most 
insidious change that most people missed is a two-word change to one of 
the constitutional amendments. There is something called the State 
Oversight Council. This is a council that has--under the old 
constitution--had the right, and reports to the president--has the 
right to do oversight of any institution, public or private. That is to 
say, they can look at Turkish Airlines and say whether it's managed 
well or not, look at Turkish electric company, you name it. So any 
government-owned or any government institution, whether a certain 
ministry or not, is--will be--they have the oversight of it. They also 
have oversight over NGOs and civil society groups like chambers of 
commerce, labor unions, et cetera.
    But it was only an oversight law. They added two words to now give 
that council the right to prosecute. Which means the president, if he 
doesn't like a certain NGO or a certain business association, can 
decide to tell this council, just issue a report, and there goes that--
in other words, he can close it down. So that gives essentially a 
chilling effect on all the institutions in Turkey. And this is the one 
thing that actually I was surprisingly--in Turkey there was absolutely 
no discussion of this--of this particular change, and there's been very 
little change otherwise. So we're talking essentially about an 
amazingly authoritarian system that is coming to power through the 
constitutional referendum.
    Now, let me talk a little bit about the judicial system, because in 
some ways the judicial system, just like in our country, has been a 
little bit of an opposition to any governmental power in Turkey. Now, 
let me just emphasize one thing. This is not to say that pre-Erdogan or 
pre this constitutional change that Turkey was a democracy. Turkey was 
always a challenged democracy. It was always a managed democracy. It 
was a democracy in which there was always a power behind the throne, 
and that was the military. And that the military essentially could 
veto, without saying anything in public, all kinds of decisions that 
any government took.
    And every single government--because there have been so many 
military coups--every single government always lived under the shadow 
of a potential military coup. So it was not a democracy, OK? We 
shouldn't suddenly say, oh, Turkey was a democracy and is becoming 
undemocratic. It was one form of undemocratic system. Unfortunately, 
under the new system, it is becoming even more undemocratic. It's just 
going from less democracy to whatever you want to say. That's the most 
important thing to remember about Turkey.
    When you look at the judiciary, the judiciary now is going to be 
completely controlled by the president. He will be able to appoint just 
about every single member of the Constitutional Court, every single 
member of the Council of Prosecutors and Judges. Those are the people 
who essentially decide all the rules that judges and prosecutors have 
to abide by. And he does this essentially either by--he has the right 
to appoint directly some of these judges. But parliament also appoints 
them. But since parliament is planned to be essentially from the same 
party as the president in the way they've constructed the system, in 
effect he will tell them whom to appoint.
    And look at what essentially has happened to the Justice and 
Development Party [AKP]. The AKP, which was in its formation years, was 
essentially a system where Erdogan was primus inter pares. He was the 
most important leader, but there was a whole cadre of second-level 
people who had a huge amount of influence, who had essentially support 
in society. Every single one of them has been essentially dismissed or 
is no longer in the party. Who has replaced these people are 
essentially yes-men--mostly men. So you have a system now whereby 
everybody responds to Erdogan.
    When you look at the judicial system, all right, we have seen 
enormous numbers of people--and Congressman McGovern mentioned them--
who have been dismissed, who have been jailed. More than 150 
journalists are in jail. Some of the people--a friend of mine, one of 
the great intellectuals of Turkey, he and his brother are in jail 
because apparently the day before the coup they were sending subliminal 
messages on television. You tell me, how are you going to try this 
case, and how you're going to prove subliminal messages in a court of 
law? They've been in jail now for almost 200 days without the charges 
being implemented.
    So you already see that the judicial system has been completely 
corrupted. Look, I used to say that in Turkey--this is before these new 
changes--that Turkish justice is to justice what military music is to 
music, right? There's a semblance, all right, but it is not really 
music. It is not really justice. Now, it's even worse than that. As of 
last week--and there have been more purges since these numbers so I 
haven't been able to update them yet--4,100 judges and prosecutors have 
been dismissed, of whom 3,089 are in jail. It doesn't take much to 
dismiss--I mean, of course you can accuse somebody of being a member of 
Fethullah Gulen organization. And, yes, there was--many of these judges 
and prosecutors were affiliated or sympathetic to the Gulen movement, 
which was an ally of the government.
    But it is also the atmosphere. About three or four weeks ago, a 
panel of three judges released 21 journalists, one of whom is a friend 
of mine. I remember in the morning when I heard the news I was very 
excited. I tweeted that this guy, Acar, had been released. But before 
they could essentially leave the prison, they were re-arrested on new 
charges. But most importantly, the three judges and the prosecutor who 
decided to release them were all dismissed.
    So you tell me, next time a judge has to make a decision on whether 
or not to release a defendant, whether or not he or she will dare to? 
Because when you get dismissed from the service not only do you lose 
your salary, you lose your right to work for the government again, they 
take away your retirement benefits, and if you had public housing--you 
lived in housing offered--you immediately get kicked out. So the 
atmosphere of fear and pressure is such that you can't breathe anymore 
in Turkey, all right?
    And you must have seen the news yesterday that Wikipedia has been 
banned because they repeatedly refused to take down some references to 
Erdogan that he did not like. People get jailed for long periods of 
time for quote/unquote ``insulting the president'' on Twitter. But you 
don't have a judiciary anymore that can stand up. And that's a great 
tragedy, because there's nobody left in Turkey who now can defend the 
individual against the state. As bad as the judicial system used to be, 
at least there were judges who could stand up to executive authority 
and who did do the right thing. That's gone now. They're either purged 
or they're completely cowed.
    Let me stop here, and then if you have questions I'll answer them 
afterwards.
    Mr. Price. Thank you, Dr. Barkey.
    Mr. Schenkkan.
    Mr. Schenkkan. Thank you. And I'd like to thank the Commissions--
the Helsinki and Lantos Commissions--for having me today. It's an honor 
to be here.
    I'm going to speak about non-state institutions in Turkey. At 
Freedom House and on the project that I direct, Nations in Transit, we 
use a thick definition of democracy. What that means is as opposed to a 
thin or a minimalist definition that is just about elections, we think 
about democracy in terms of intermeshed but functionally independent 
institutions. And so those are elected and non-elected state 
institutions--like national governments, local governments, the 
judiciary, but also non-state institutions, the media and civil 
society. I'm going to focus on those non-state institutions and how 
they've been subordinated under the agenda of the Justice and 
Development Party, but in particular under President Erdogan's agenda 
for the last several years.
    I'll start with the media. And I want to state, like Dr. Barkey did 
regarding the judiciary, that this crackdown on the press in Turkey 
that we've been following now for several years, and has gotten a lot 
of attention in international media and in policy circles, there's good 
reason for that. But at the same time, Turkey's media has been 
vulnerable for a very long time--and since long before 2002, and before 
the AKP became the dominant party.
    This is true legally in terms of the protections offered to freedom 
of expression and to the media. Turkey has very over-broad legislation, 
especially in the realm of anti-terror legislation. It's also true on 
the financial side, and in terms of kind of the structural issues 
within the media, which have left media owners for several decades 
dependent on cultivating good relationships with the government or with 
the military, when the military was dominant, in order to make sure 
that they won government contracts for other business interests that 
those media owners also held.
    So what the AKP and what Erdogan did is, they took full advantage 
of those vulnerabilities. And so, by the time the Gezi Park protests 
started in May 2013, which is when a lot of this started getting a lot 
of international attention, they had consolidated their control over 
the mainstream media already. Most of the mainstream outlets by that 
time had been transferred to supportive owners, and they had become 
pro-government channels. The government's most influential media 
company, the Dogan company, had been forced to sell off two of its most 
important assets to a government-friendly owner because it was subject 
to a politically motivated tax investigation.
    And then in addition, with the internet--which is a longer and 
separate topic--when social media and internet organizing showed 
themselves to be actually quite powerful tools in 2011 and in 2013, 
during Gezi, the government first moved to suppress those, and then 
also to co-opt them, to take over those channels as well. There was 
also extensive imprisonment of journalists already in that time. A 
majority of the journalists--as they had been under previous regimes, 
under previous administrations prior to the AKP--a majority of the 
journalists persecuted and imprisoned were Kurdish or left-wing 
journalists.
    So by December 2013 already the Committee to Protect Journalists 
[CPJ] was recording 40 journalists in prison in Turkey. And their 
counts, for the record, tend to be a little bit lower than some of the 
other monitoring groups because of their methodology. And in that year 
already, Freedom House had downgraded Turkey to ``not free'' in freedom 
of the press. So, for all that the alarm bells were ringing at that 
time, in early 2014, the deterioration has still been, frankly, 
extraordinary. The AKP fell out with its former allies in the Gulen 
movement, which I know we're going to talk about a little bit, in 
December 2013.
    And at that point, the crackdown on the media widened to include 
the Gulen movement's affiliated outlets, which previously had been on 
the side of the government and had been protected a little bit from 
this persecution. The government took over a series of Gulen-affiliated 
outlets, and also began using affiliations or connections with the 
Gulen movement--very indirect connections--to persecute other non-Gulen 
journalists. We also started to have a huge wave of foreign journalists 
having their press credentials denied, being deported, in some cases 
being arrested within the country.
    Then the coup attempt, July 15, 2016. And since then, I would say 
the attack on the media has really taken on this scorched earth kind of 
quality. The powers granted by the state of emergency, which is still 
in effect, give the government the power to close media outlets 
unilaterally. And they've used that very widely. They've closed and 
expropriated, I should add--the government has seized the assets--of 
more than 150 media outlets--TV stations, news agencies, magazines, 
newspapers, publishing houses, radio stations. There were two more 
closed this weekend. Yes, many of those are Gulen-affiliated. Many are 
not. And essentially, the ones that are not are largely leftist or 
Kurdish. So you have kind of all these things being folded into one 
large crackdown.
    Imprisonment, CPJ as of December 2016 was counting 81 journalists 
in prison. The local monitor, P24, is counting 163. They just updated 
it today. The impact is the total evisceration of the media sector. 
There's dozens of well-known journalists--I mean, we all know now many 
journalists who are in prison, many others who are in exile. And those 
who are working, who continue to work, fear every day that they can be 
targeted. That results in a media that is crippled and self-censoring. 
Or, alternately, that what remains open is marginal and cannot reach a 
broader audience. So the Dogan Group, the largest--formerly largest 
media group--its flagships, Hurriyet, CNN Turk, they remain open, but 
they're extremely censored at this point--self-censored, because 
editors are afraid of consequences if they cross one of the many 
invisible lines.
    Cumhuriyet, the country's oldest newspaper, is still open. But its 
former editor, Can Dundar, is in exile. Its current editor and 10 other 
staff members are in jail. And there's now a very muddy legal case 
that's being fought out, where the judiciary may be used to manipulate 
the future control of that paper. And what you have then are things 
like far-left--what we would have considered far-left or hard 
nationalist--very obscure outlets like Evrensel, Aydinlik, all of a 
sudden playing a much bigger role, because readers don't have anywhere 
to go for information, journalists don't have anywhere to go to work. 
But the resources of those outlets and their ideological affiliations 
and positions really means that they really can't read a mainstream 
audience. Also, in addition, I should add that they are print, 
fundamentally. And TV is under very solid control, which is far more 
important.
    This means that many stories just aren't covered, or if they are 
covered are covered only in the way that the government wants to frame 
the coverage. So really all the most important things you can imagine--
official high-level corruption, the state of the economy, the war with 
the PKK, radicalization and recruitment for Islamist groups like ISIS, 
and then of course the coup attempt and the purges that have followed--
these are essentially either off-topic or off the agenda or they are 
framed within the way that the government wants to frame them.
    On civil society, briefly, it's also very dire. The formal civil 
society sector that I'll talk about--the NGOs, think tanks, 
professional activist groups--again, they've also long been suffering 
from the same kind of negative legal environment, even prior to the 
AKP, and prior to the crackdown starting 2013 and its escalation in the 
recent years, and since the coup attempt. And as with the media, those 
that have been targeted the most are leftist and Kurdish groups, or 
human rights defenders who work on behalf of ethnic, religious, sexual 
minorities. Most recently the renewal of the conflict with the PKK 
already, in summer 2015, brought very serious consequences for human 
rights defenders and for human rights groups in Turkey.
    Tahir Elci, who was the chairman of the Diyarbakir Bar Association 
and one of the most prominent human rights defenders in Turkey was 
murdered in public in Diyarbakir in November 2015. And the 
investigation remains ongoing. It remains unclear why he was killed or 
who killed him. But at the time, he was facing charges for 
disseminating terrorist propaganda for criticizing the conduct of the 
war against the PKK. In 2016, before the coup attempt, the president of 
the Human Rights Foundation of Turkey, as well as the Turkish 
representative of Reporters Sans Frontieres, were among a group of 
freedom of expression activists who were arrested and are being 
prosecuted for a solidarity campaign with a Kurdish newspaper. And that 
trial continues, remains open.
    And since the coup attempt, the government has been using--like 
with the media--using the coup attempt as a pretext to purge the 
sector. So as was mentioned, more than a thousand associations have 
been closed under emergency orders. Many of these are completely 
obscure, nonpolitical groups, where there's no conceivable connection 
to the Gulen movement or to leftism, in fact. Some of the others are 
being targeted probably for their work. You have a couple of very 
important lawyers groups that handled human rights cases--the 
Progressive Lawyers Organization and Liberal Lawyers Association--that 
were closed. Four hundred and eleven lawyers are currently under arrest 
right now.
    The Islamic human rights organization and effective conservative 
Islamic human rights organization, Mazlumder, has had its leadership 
replaced, in this case due to heavy government pressure and internal 
disagreements about how to cover the war with the PKK. And then a 
number of prominent human rights defenders are being targeted directly. 
Orhan Kemal Cingiz, who's a very well-known human rights lawyer, who 
was also the lawyer for Zaman, a Gulen flagship newspaper, after it was 
seized by the government. Orhan Kemal is under indictment, along with 
dozens of journalists, for supposedly being a member of the Gulen 
movement. And the evidence in this, frankly ridiculous, case is simply 
that he wrote columns at Zeman. And he, along with the others in that 
case, are facing three aggravated life sentences.
    Additionally, other human rights defenders--Mohammed [sic; 
Muharrem] Erbey, who's the former chair of the Diyarbakir branch of the 
Human Rights Association, was sentenced in March to six years in prison 
for being a member of an illegal organization. The current chair of the 
IHD in Diyarbakir, Raci Bilici, was detained in March and is under 
investigation under similar charges. And the Cizre Representative of 
the Human Rights Foundation of Turkey, who is a doctor, was convicted 
of aiding an armed group for acting as a physician during the fighting 
in that city.
    So what then does the referendum mean and what do the changes mean 
for media and civil society? In a direct legal sense, I would say they 
don't necessarily change that much, with the exception perhaps of this 
amendment. The vulnerabilities that were there for media and civil 
society are so grave, and have been for so long in Turkey, that there's 
really been very little to constrain an organized and a willing state 
from taking any kind of action it wanted against the media and civil 
society. And they have done so, especially since the coup attempt.
    Indirectly, though, in the legal sense, the referendum means a 
great deal because of the disappearance of any kind of independent 
judiciary, as you see in this recent case involving one of the groups 
of journalists that Dr. Barkey mentioned. Just like regular citizens, 
media and civil society needs to have ways to appeal actions of the law 
enforcement or the executive branch when they are persecuted. And 
without an independent judiciary, there's simply no check. And so we'll 
see much more arbitrary abuse of power as a result.
    And then finally, in political terms, there are ramifications for 
media and civil society. To go back to the distinction I made at the 
beginning between the thick and thin democracy, President Erdogan and 
those who support him in his camp, who are consolidating control, have 
an extremely thin conception of democracy. It really comes down to only 
voting, and only voting in all disregard for even the circumstances of 
that voting. And what they see, when they see media and civil society, 
are not independent institutions that should be respected and 
protected. They see threats, or they see opportunities, ways to further 
dominate the public discussion and to drive a public agenda.
    And with this kind of very thin definition of democracy now in 
ascendance, the future for media and civil society is, unfortunately, 
very grim.
    Thank you.
    Mr. Price. Thank you.
    Go ahead.
    Dr. Erdem-Akcay. Good morning. I'd like to thank the Helsinki 
Commission and the Lantos Commission for inviting me to talk about the 
academic freedoms in Turkey. And I'd like to thank them for giving a 
voice to the Turkish academics who have been facing persecution and 
prosecution in Turkey since January 2016.
     I'd like to pick up on where Nate ended. Basically, the July 2016 
coup attempt did not make a huge difference. Even the referendum now, 
with the constitutional changes, it will not make a huge difference in 
terms of the trajectory that Turkey has been on towards more 
authoritarianism. And I will try to illustrate this case by using the 
case of Academics for Peace in Turkey.
    In June 2015, there were parliamentary elections held. For the 
first time since 2002, Justice and Development Party, AKP, failed to 
gain enough seats in the parliament to achieve a majority. This meant 
that they could not just form a government. And that was a period of 
political uncertainty, after the election--will there be a government, 
will it be a minority government, and things like that. And during this 
time, the uncertainty contributed to the worsening of the situation in 
the southeast. The Kurdish towns in the southeast have been 
experiencing civil violence for decades now, but in this period this 
conflict became more urban warfare, rather than the rural warfare that 
it had been experiencing before. And urban warfare has different 
dynamics and different consequences, especially considering the numbers 
of residents living in urban areas.
    So larger numbers of residents were caught in the crossfire between 
PKK militants and the military. Tens of thousands had to flee their 
homes. Neighborhoods blocks away from the governor's offices, in cities 
like Diyarbakir, for example, were shelled. People were trapped in 
their homes under curfews--and when I say curfews, it's 24 hours. So I 
prefer to use the word siege. And they had a hard time finding bread, 
let alone ambulances for the wounded.
    Towards November and December of 2015, terrible news and heart-
wrenching images were trickling through to the rest of the country. In 
January 2016, a group of scholars called Academics for Peace protested 
this ongoing violence and called for a peaceful solution to the 
conflict in a peace petition. This petition was titled ``We Will Not Be 
a Party to This Crime.'' The statement demanded an end to the ongoing 
violence and to the siege in the region. They called for identification 
and punishment of those who violated human rights during this period. 
They also asked for permission of international observers to study and 
report the conditions and human rights violations. And they also 
denounced all forms of government suppression on the opposition.
    At the time of the declaration on January 11th, 1,128 scholars had 
signed the petition. They were women and men who worked as faculty, 
researchers, and doctoral students at public and private universities 
across the country. Also, Turkish citizens abroad. It would be fair to 
say that they are all left-leaning, democratic, and progressive 
individuals, and many had activist experiences and they were active in 
politics. By the time the petition was closed to signatures on January 
18th, a total of 2,212 scholars, including myself, had signed on.
    Right after the public declaration of the petition, the signatories 
became the targets of Erdogan himself, other high-ranking AKP leaders, 
the Higher Education Council, university administrators, convicted 
mafia leaders, ultranationalist thugs on campuses, and local 
nationalist and pro-government media. The signatories faced real 
threats to their lives and security. Their photos were published in 
local media as traitors, their campus office doors were marked with red 
paint. Some received threat letters under their office doors. Some were 
threatened with death and/or rape, insulted, harassed on social media. 
They were branded as PKK militants. Erdogan himself called them 
traitors. Mafia leader Sedat Peker said he would spill their blood in 
streams and shower in it.
    Local prosecutors and university administrators started legal and 
disciplinary investigations respectively. All of the some 1,400 
signatories who lived in Turkey at the time are currently subject to 
criminal investigations. But they were not told what they were charged 
with when they went to the police to give statements.
    This case is at the investigation stage and has not gone to court 
yet. Four Academics for Peace were held in pretrial detention for a 
month, some of it under solitary confinement. And this was for 
reiterating the content of the peace petition and outlining the 
retaliation that Academics for Peace face after the declaration. Their 
case is still ongoing, but they have been freed pending trial.
    Fifty-six scholars were briefly detained, and their homes and 
offices were searched in the weeks following the declaration and the 
outrage. And just yesterday, about 13 other scholars were detained in 
Diyarbakir and then released.
    To this date, I have not seen any court decisions convicting any 
signatories with charges related to the peace petition. Those Academics 
for Peace who had contractual positions had their contracts terminated 
soon after; 122 were dismissed, forced to resign or retire. However, it 
is not as easy to dismiss faculty who have more secure positions, 
similar to the tenure in the United States. Dismissing them involves 
bureaucratic action such as investigations by a committee, defense 
statements and higher-education council approvals. Moreover, these 
decisions can be appealed and reversed by the courts technically.
    Between January and July of 2016, 505 investigations were ongoing 
at universities, and some contract terminations were actually reversed 
by the courts, although they were never really reinstated to their 
previous positions, despite the court's decision.
    The coup attempt led to the declaration of a state of emergency, 
which has been extended every three months ever since, currently 
ongoing in Turkey. State-of-emergency rule allows rule by governmental 
decrees. And these decrees effectively bypass the legislature and any 
bureaucratic regulations. It is through these decrees that the 
government was able to ban hundreds of thousands from public-service 
employment and canceled their passports.
    The 7,317 purged academics cannot find employment in any public 
university. And private universities or private companies refrain from 
hiring them because their names were on this list. They are basically 
blacklisted from employment anywhere. Those who were able to secure 
fellowships and visiting positions abroad had to forgo these 
opportunities because they do not have passports anymore. There is no 
legal recourse for the purge decision. Both higher administrative court 
and the constitutional court have declined appeals, saying they have no 
jurisdiction over them.
    Coming back to the Academics for Peace, 372 of them who could not 
be dismissed through the bureaucratic procedure were dismissed 
overnight with cabinet signatures, just by decree. Sixty-six of the 484 
academics dismissed by decree--66 of the 484 academics dismissed by the 
decree on April 29th, just recently, were Academics for Peace. And 
several Academics for Peace were recently purged from Dijlah University 
in Diyarbakir, the major town in the southeast. They were detained 
yesterday, and fortunately they were released. But it looks like there 
is another criminal case coming.
    There is no expectation of justice any time soon, because the 
judicial system itself is undermined by the purges. Many of the 
justices and judges, prosecutors, they were purged too. And the justice 
system is totally overwhelmed with the huge number of cases. There is a 
huge volume of cases, and actually there's not even enough space in 
prisons anymore.
    The coup attempt failed, but it enabled the government to dismiss 
Academics for Peace by passing the requirement--required official 
procedure. And it was able to punish the dissenters in a way that it 
could not do under no-state-of-emergency situation.
    And a funny tidbit here--actually, tragicomic--is there were some 
Academics for Peace who had resigned from their positions or who were 
actually dismissed because they were on contracts. But they were still 
purged, the decree, although they were not working for a while, because 
the government wanted to punish them by blacklisting, because the 
actual purge removes you from your position but it also takes away your 
pension. It takes away your passport. And it is more dire punishment 
than just simple dismissal.
    It was known from Erdogan's comments in January 2016, way before 
the coup, that the Academics for Peace would pay a price for signing 
the petition and asking for peace. But this price was steep and 
collected more swiftly, thanks to the coup attempt. And under the 
current situation with the new constitution, we do not really have much 
hope for any improvement towards more justice.
    Mr. Price. Thank you very much, Dr. Erdem-Akcay.
    And thank you all very much for your extremely compelling and 
expert interventions. I think we've gotten a very impressive, if 
overwhelming and disheartening, view of the landscape of repression 
that currently exists in Turkey.
    I wanted to pick up on one theme that coursed through a few of your 
interventions, and that is that this is not new to the Turkish 
experience: that it was already a weak democracy before the 
constitutional referendum, before the coming of the AKP Party. And I 
wanted to ask, what lessons do you think we should draw from that? In a 
minute I want to ask you about what Congress can do and what the 
administration can do and this sort of thing. But what do you think our 
lessons should be from that? And does that point to some kind of 
historical analogy for what our relationship has looked like in the 
past, and what it might look like now or in the future? Anybody can 
take that question as you wish.
    Dr. Martin-Rozumilowicz. Maybe I'll just say a quick word about 
institutions. And I think one of the fundamental things is that, 
despite all of the different problems, there was a point in Turkish 
development where institutions were relatively vibrant and had some 
level of protection against political incursion.
    And I think up until around 2011, at least the election 
administration, which is formally part of the judicial branch, had some 
kind of resilience in trying to resist the various incursions that were 
being made politically. But that only can survive for some period of 
time. And looking at those early warning signs early enough and trying 
to buttress those kinds of important democratic institutions in 
appropriate ways earlier in the process, so that when you come to this 
very dramatic shift, there is some spirit left that is able to fight 
the right cause. I'm not saying that would have been the ultimate 
solution, but it may have helped in the current circumstances.
    Mr. Schenkkan. Yes. And I think I would add on to that, which is to 
say the role of the anti-terror legislation and kind of the formative 
role within the legal vulnerability for media and civil society--so 
much of it is based on the way the anti-terror laws are written. And 
those were a target for reforms in the EU process in the late 2000s. 
And even five or six years ago, that was still on the table as an item 
for discussion.
    But that was kind of late in the game. And they're such an 
important constraint for freedom of expression, for freedom of 
association, for freedom of assembly, that I would say they really 
needed to be addressed earlier in that process; I think they were saved 
for the last in a way because they were seen as so sensitive, which 
they certainly are. But they're also so fundamental that without 
improving them and changing that legislation, there really wasn't 
adequate protection for media or for civil society.
    Mr. Price. So then if I could ask also, as I mentioned about what 
steps you think the Congress and the administration should take, are 
there particular kinds of assistance that you think should be offered 
or that should be withheld in this kind of environment, and also what 
specific messages would you recommend that the President convey to 
President Erdogan when they meet in a couple of weeks?
    Dr. Barkey. Look, when it comes to issues of freedom of the press, 
human rights, the United States has failed miserably when it comes to 
Turkey. And I'm a big ``D'' Democrat. The Obama Administration was 
awful when it came to that. A hundred and fifty journalists went to 
jail under the Obama Administration, and not a peep came out of this 
administration. This is an administration that's supposed to be 
sensitive to these issues.
    Similarly, you know, we abated Erdogan's rise, just like we abated 
the military's rise in the past, because we're always tempted to think 
that Turkey is strategically too important for us to alienate. But the 
fact of the matter is that we are more important to the Turks than the 
Turks are to us.
    Yes, Turkey is strategically, amazingly important, unquestionably. 
We have a very long relationship with Turkey. But now we are faced with 
a situation where we have essentially a populist leader who on a daily 
basis assaults us and our allies in Europe, calls us all kinds of 
names, and not a peep comes out of any of these administrations. And I 
think the Trump Administration was terribly wrong in calling and 
congratulating at a time when the Europeans, when the OSCE had not even 
issued a report on the results of the referendum, and he congratulates 
Erdogan on his victory.
    I'm sorry. That victory is a victory that may not have been a 
victory to begin with, because we don't know and we'll never find out, 
right. And so, first and foremost, we have to at least stand up for our 
principles. Look, we have the Americans and dual nationals in jail in 
Turkey. We have people who worked for the U.S. Government.
    There's a Foreign Service national who worked for us for 35 years, 
who was jailed--he's still on our payroll--he was jailed four months 
ago, and we haven't been able to get him out. And I've--look, he's 
somebody I've known for 30 years and somebody I really care about. But 
it's not just--it's the fact that we seem to--we have a bully, 
unfortunately, in Mr. Erdogan, and we tend to always bend at his wish.
    The only time the Obama Administration stood up to Erdogan was when 
he came to the question of Kobani in 2014. The Turks did not want us to 
intervene. We intervened. And look what happened at the time. Until 
then, the Turks were refusing to give us access to Incirlik airbase to 
fight ISIS. So, when we decided to work with the Syrian Kurds, all of a 
sudden the Turks said, oh, you know what, you can come use Incirlik.
    But that should have given us the sense that when you push back, 
you get results. The Russians got results, for crying out loud, right? 
The Turks shot down an airplane. Both Erdogan and Davutoglu, who at the 
time was the prime minister, said, yes, we gave the order, and we would 
do it again. The Russians imposed some minor sanctions, and suddenly 
those pilots were Gulenists, and suddenly they shot down the plane 
without authorization from the government.
    So there are ways in which one can send up--if you don't do that, 
they'll take it as far as they can--they will. I mean, in terms of 
being, shall we say--what's the expression? I can't think of it--
honestly, I'm now an indicted conspirator, a formally indicted 
conspirator, for trying to overthrow the Turkish Government. Two weeks 
ago they indicted me. Mind you, they indicted me with Chuck Schumer--
[laughter]--and Preet Bharara and the former head of the CIA, John 
Brennan; I mean, good company. You know, there are others also in that.
    But, come on, they can indict a ham sandwich if they want to. But 
what did we say about that? Nothing.
    Dr. Erdem-Akcay. I realize that the situation in Syria, the Syrian 
conflict, the fight against ISIS and also the ongoing refugee crisis, 
Turkey is playing a big role, and we have to appreciate that. You know, 
criticizing Turkey is not very easy. You have to keep a leader like 
Erdogan pleased. And I know that the United States has cooperated with 
authoritarian leaders, and sometimes even dictators, in the past for 
geopolitical-security reasons.
    But I think I would ask the Congress and our government to at least 
acknowledge that Turkey is not a democracy. It hasn't been a democracy 
for a while. They have an authoritarian with a very strict 
authoritarian regime in place. And adjust our relationships with the 
country accordingly.
    It's not the hopeful Turkey of maybe a decade before or maybe in 
the early 2000s. They were, like, oh, the Turkish model. No, it's not. 
Even if it existed at some point, it's not there anymore. So let's make 
sure that we are on a clear page at this point.
    And I'd like to give another example, in addition to Mr. Barkey's. 
And this is the case of a Turkish-American scholar--he's actually an 
American citizen who works at NASA. He's a NASA scientist, and his name 
is Serkan Golge. And he was on vacation in Turkey visiting his family 
during the coup attempt, and he was detained just before he was due to 
come back with his family. And he is now in prison, and he has been in 
prison and, I believe, solitary confinement. He had a court hearing a 
few weeks ago and it was just postponed.
    He's charged with being a member of this Gulenist terror 
organization. But the evidence that they have on him is the 
denouncement of somebody. They don't even know who exactly. It was 
probably something that was said--just sent to the security forces over 
the internet saying he's Gulenist and he works for the CIA, blah, blah. 
And also they found a one-dollar bill in his home.
    I mean, this is the state of Turkish justice at this point. Yes, 
the government needs to prosecute this coup attempt and who was 
involved in it, and there is something to be done. And they have all 
the right to do that. But a one-dollar bill found in somebody's pocket 
should not be evidence for solitary confinement or justifying anything. 
I mean, we are in a situation. I want to give this personal example. We 
were emptying our pockets of one-dollar bills at the airport before 
flying into Turkey last summer. And I'm thinking, OK, does being on the 
same panel with Mr. Barkey here, does that put me on some blacklist, if 
I'm not already?
    So this is really, honestly--I don't know if we should be going 
back to Turkey this summer. And again, the Congress and the government 
should understand the dire situation. And although we may continue to 
cooperate on the important international issues with Turkey, we do not 
need to enable this authoritarian government; I mean, calling them and 
congratulating them on the referendum, inviting them to D.C. to put on 
some kind of show. I think it will be a spectacle.
    So, yes, I think the government has certain ways of adjusting the 
way that it approaches Turkey.
    Mr. Price. Please.
    Dr. Barkey. Look, one of the things you can do is talk to your 
bosses and ask them to ask the White House to raise the issue of these 
Americans and people working for us. I think if the President were to 
raise it in his conversations with Erdogan, then we'll get somewhere. I 
mean, of course, Erdogan wants other people to be released here who are 
in jail. But it's only if Congress gets to the President that something 
will happen. Otherwise it's hopeless.
    Mr. Schenkkan. Let me endorse what Dr. Barkey said, and also to say 
that in terms of public statements or statements that the U.S. has 
made, including failed to make, as he said, under the Obama 
Administration for years, there's always this argument about whether 
those will have the desired impact, whether a statement by the 
President will make Turkey a democracy, which is this kind of straw-man 
argument. Of course not. Everyone knows that.
    And that's not why we make statements. That's not why it's 
important that the U.S. make statements. Of course, it would be nice if 
it worked that way. But one of the reasons you make statements is also 
for ourselves. It's also to affirm what we believe in and to reinforce 
among ourselves in the United States and with our allies in Western 
Europe to reinforce what kind of values and what kind of systems we 
stand for. And it has an impact. It has a domestic impact. It's for us 
too. So I really urge it on those grounds as well.
    Regarding assistance, because you asked, the U.S. has been very 
reluctant for a long time, across many administrations going back to 
the 1990s, to really engage in democracy assistance and democracy 
promotion in Turkey. This is based on Turkish sensitivities. It's also 
based on lumping Turkey in with countries in Central Europe that were 
considered graduated, generally because they were on an EU process, an 
EU track, and the EU was handling it. That's not been a good approach 
in Central Europe either, by the way.
    The U.S. should expand its democracy assistance. It should expand 
the kinds of democracy promotion work that it does and the kinds of 
people that it work with, well beyond the very, very limited kind of 
support that you get right now from the National Endowment for 
Democracy or from the party institutes or from, every once in a while, 
the State Department through the Bureau of Democracy, Human Rights and 
Labor.
    There really is an enormous need, a bottomless need, of 
organizations that can be supported and encouraged in the media, 
especially in the areas of investigative journalism, which is a kind of 
work that has dramatically expanded in terms of democracy assistance in 
the last 10 years, that people have gotten quite good at doing and good 
at facilitating and supporting.
    And Turkey has enough good journalists and enough quality high-
capacity journalists still, perhaps in exile in some cases, where that 
is a thing that can be supported; and civil society organizations as 
well. Not all of them will take the funding. Not all of them will want 
it. And that, as always, is going to be their decision. But there's 
still a great opportunity there that is waiting to be taken, but it 
will require the U.S. really to, as Dr. Akcay said, to rethink what the 
relationship is with Turkey and to restate what is Turkey. Which group 
of countries are we putting it in?
    Dr. Martin-Rozumilowicz. Can I just second that, that I think this 
increased level of activity is absolutely essential? And also a clear 
statement on the state of play at the moment, if only because, at some 
point, there were democratic aspects of Turkish society and its 
political government which very much puts forward the idea that Islam 
and democracy are not necessarily antithetical.
    And I think the Turkish example has been quite clear that you can 
have a system of political rule where you do have an adequate level of 
separation of church and state, where you do have democratic 
institutions, where you can have a vibrant civil society and a vibrant 
media, and not to forget that at some point the accession of Turkey to 
the European Union was a very seriously discussed and considered 
possibility.
    And so, to have that example slide into authoritarianism is not in 
the interest of Turkey, but it's also not in the interest of the 
Islamic world, where many people would say that there is an antithesis 
between Islam and democracy, which I think is very much untrue.
    Mr. Price. Thank you so much.
    I want to make sure that some members of our audience get a chance 
to ask a question too. We're closing in on our concluding time in the 
next 10 minutes or so. But if there's a question from the audience----
    Sir.
    Questioner. Not so much a question. I'm from the Turkish Embassy. 
You know, thank you all for your interest in Turkish democracy.
    But what strikes me is the absence of democracy in this room, that 
there has been no dissenting view, which is a requisite of democracy. 
When we heard about the event taking place, we tried to get in touch 
with the Helsinki Commission to bring this imbalanced composition of 
speakers to their attention and maybe encourage them to provide 
additional speakers to make the audience hear the other side of this 
story. There's always a different side of the story.
    We've heard that the glass is almost empty in Turkey. But, you 
know, there are cases in which a different composition, a different 
speaker with a different background making a different point, that can 
give a more thorough picture to the audience. And we remain at your 
disposal. If the Helsinki Commission or the Tom Lantos Commission feels 
the necessity to rectify this deficiency next time around, we stand 
ready to provide the additional names of such--[inaudible].
    Thank you.
    Mr. Price. Thank you, sir. Well, we thank you for your attendance.
    And we feel it important to raise these voices at this time. As was 
mentioned, there has been concern about the unlevel playing field that 
has existed in Turkey surrounding these current events. This is a way 
to offer what we believe to be expert--this isn't just opposition 
against a prevailing view-but true experts, people that have spent a 
long time studying this subject.
    We do thank you for your attendance, though, and for chiming in, 
and look forward to being in contact.
    Are there any other questions? Yes.
    Questioner. Hi. Good morning. My name is Leanne [sp]. I'm a Lantos 
Fellow, actually, here--[inaudible].
    My question is regarding the bilateral relations between Turkey and 
the United States, and also noting that the EU and Turkey's relations 
are a bit kind of shaky in the past year.
    How is your suggestion of the Congress basically naming or 
acknowledging Turkey not as a democracy, but rather as an authoritarian 
regime would affect those bilateral relations, which the United States 
is looking at actually strengthening? Because of the weakening of the 
relations between Turkey and the EU, how is it going to affect it? And 
will it pursue or will it push Turkey to search for other relations, 
mainly with Russia and other actors in the international arena?
    Thank you.
    Dr. Erdem-Akcay. Thanks for your question.
    I think acknowledging that Turkey is an authoritarian regime and 
not really on the track towards more democracy need not change their 
bilateral relationships. You can still have cooperation on the issue of 
the Syrian conflict. You can have cooperation over the issue of 
refugees, the fight with ISIS. All those can actually continue.
    And again, as I said, it's not that U.S. never has relationships, 
cooperative relationships, with authoritarian regimes. It has. What it 
does is a change of framework. You know that you're dealing with an 
authoritarian regime and a regime where one person's words carry a lot 
of weight. So you adjust yourself accordingly.
    This is good for the U.S. too, because they will know what they 
should expect. Before we had the Turkey-EU axis and we had the Turkey-
NATO axis, and the NATO membership, the NATO relationship had been very 
important for Turkey for decades. But now Turkey has totally put the EU 
membership issue on the back burner. And while they are not considering 
leaving NATO, it doesn't stop them from establishing kind of warmer 
relationships with Russia. There's always talk of buying weapons from 
China, weapons from Russia.
    I think acknowledging the real situation in Turkey would also be 
[inaudible] on the part of the U.S., too. It doesn't need to be, leave 
Turkey on its own and not deal with it at all. It is just continue, 
cooperate, help out in ways that could improve democracy, but just know 
the facts on the ground.
    Mr. Price. All right. Well, with that, I think we can conclude.
    I thank very much our participants, our expert panel, and all of 
you for your attendance today.
    Thank you very much. [Applause.]
    [Whereupon, at 11:55 a.m., the joint briefing ended.]
    
    
    
    





    
    
    
    
    
    
                      A P P E N D I X

==========================================================================

Prepared Statement of Nate Schenkkan, Project Director, Nations in Transit
                               Freedom House
                   

Introduction

    Chairman Wicker, Co-Chairman Smith, Co-Chairmen McGovern and 
Hultgren, and members of the Helsinki and Lantos Commissions, it is an 
honor to join you today.
    I'll be speaking today about non-state institutions in Turkey. At 
Freedom House, and on the project I direct, Nations in Transit, we use 
a ``thick'' definition of democracy, as opposed to a ``thin'' or 
minimalist definition. A thick definition means we consider democracy 
to be not just elections. It is the product of intermeshed but 
functionally independent institutions: both elected and non-elected 
state institutions, like national and local governments and 
judiciaries, and non-state institutions, like the media and civil 
society.
    Today I will, focus on the non-state institutions of media and 
civil society, and how they have been subordinated to the agenda of the 
Justice and Development Party or AKP, and particularly President Recep 
Tayyip Erdogan, in Turkey over the last several years.

The Media

    The crackdown on the press in Turkey has received intense 
international attention for several years, and for good reason. 
Turkey's media was vulnerable since long before the AKP won its first 
parliamentary majority in 2002. This was both on the legal side, with 
weak protections and overbroad legislation, especially concerning 
antiterror legislation, and on the financial side, with media owners 
dependent on government contracts and vulnerable to pressure.
    The AKP and Erdogan took full advantage of these vulnerabilities. 
By the time the Gezi Park protests started in May 2013, they had 
consolidated their control over the mainstream media. Most mainstream 
outlets had been transferred to more supportive owners and become 
ardently progovernment. The country's most influential media company 
was forced to sell two of its most important assets to a government-
friendly owner in order to settle politically motivated tax 
investigations. When social media and internet organizing revealed 
themselves as surprisingly powerful tools in protests in 2011 and 2013, 
the government moved first to control and then to co-opt these tools as 
well.
    Many journalists were also imprisoned, mostly those working for 
left-wing and Kurdish nationalist publications. The Committee to 
Protect Journalists recorded 40 journalists in prison in Turkey in 
December 2013. Taking all these factors into account, Freedom House 
downgraded Turkey to ``Not Free'' in Freedom of the Press 2014.
    Yet for all that alarm bells were ringing at that time, the 
deterioration since 2013 has still been extraordinary. After the AKP 
fell out with its former allies in the Gulen movement in December 2013, 
the crackdown widened to include the movement's affiliated outlets, 
which were once reliably pro-AKP. The government took over a series of 
Gulen-affiliated outlets and began using the Gulen movement as a 
pretext to attack other journalists. Foreign journalists started to 
have press credentials denied, be harassed by security services, or 
even to be deported from the country.
    What had been already a remarkably severe crackdown on the press 
took on a scorched earth quality after the July 15, 2016 coup attempt. 
Using the powers granted by the post-coup state of emergency--which is 
still in effect--the government has closed and expropriated the assets 
of more than 150 media outlets, including TV stations, news agencies, 
magazines, newspapers, publishing houses, and radio stations. Two more 
newspapers were closed in a new emergency order this weekend. CPJ as of 
December counted 81 journalists in prison, while local monitor P24 puts 
the number at 141. The impact has been the total evisceration of the 
media sector, as dozens of well known journalists are in prison or in 
exile, and those who continue to work fear every day that they could be 
targeted.
    What remains of the media that is not under government control is 
either crippled and self-censoring, or marginal and unable to cultivate 
a broader audience. The Dogan Group's flagships, the newspaper Hurriyet 
and the TV channel CNNTurk, are self-censored by editors who fear any 
controversy could land them or their owner in more legal trouble. The 
country's oldest newspaper Cumhuriyet is still open, but its former 
editor Can Dundar is in exile and its current editor and ten other 
staff members are in jail. Far-left and hard-nationalist minor outlets 
like Evrensel and Aydinlik have grown in influence as journalists and 
readers have been driven out from the mainstream, but the resources and 
the ideological positions of outlets like these mean they are in no way 
able to replace the reach of mainstream media.
    This denuded landscape leaves enormous swathes of stories 
uncovered, or covered only within the framework preferred by the 
government: things like official, especially high-level, corruption; 
the state of the economy; the war with the PKK; Islamist radicalization 
and recruitment; and of course, the coup attempt and the purge 
themselves.

Civil Society and Freedom of Association

    The situation for civil society is also dire in Turkey. The formal 
civil society sector, meaning NGOs, think tanks, and professional 
activist groups, has suffered from the same stifling legal environment 
affecting the media, and now is caught in the deterioration caused by 
the war with the Kurdistan Workers' Party (PKK), the collapse of the 
Gulen-AKP alliance, and the coup attempt. As has been the case 
throughout Turkey's history, the gravest threats have been against 
leftist and Kurdish groups, and against human rights groups and 
activists working in defense of the rights of ethnic, religious, and 
sexual minorities. Tahir Elci, the chairman of the Diyarbakir Bar 
Association and one of Turkey's most prominent human rights defenders, 
was murdered in public in Diyarbakir in November 2015 under unclear 
circumstances that still lack proper investigation. At the time he was 
killed, he was facing charges for disseminating ``terrorist 
propaganda'' by criticizing the conduct of the war against the PKK. In 
2016 and well before the coup attempt, the President of the Human 
Rights Foundation of Turkey, Sebnem Korur Fincanci, was detained along 
with the Turkish representative of Reporters sans Frontieres Erol 
Onderoglu and several dozen others for participating in a solidarity 
campaign with a Kurdish nationalist newspaper. Their trial has not 
concluded.
    Like with the media, the government has been using the coup attempt 
as a pretext to purge the civic sector. More than one thousand 
associations have been closed by emergency orders after the coup 
attempt, many of them obscure and completely non-political groups. 
Among the closed organizations were two prominent lawyers' groups that 
handled human rights cases, the Progressive Lawyers' Association and 
Liberal Lawyers' Association. Four hundred and eleven lawyers are 
currently under arrest. The conservative Islamic human rights 
organization MazlumDer has ousted its longtime leader, Ahmet Faruk 
Unsal, over disagreements on whether to report on state violations of 
human rights in the southeast or only on the PKK's crimes, and a new, 
more progovernment leader is now in charge.
    In addition, several prominent human rights defenders have been 
directly targeted recently, either in relation to the coup attempt or 
to the fighting with the PKK in the southeast. Orhan Kemal Cengiz, a 
well known human rights lawyer who also acted as the lawyer for Zaman 
after its closure in 2016, is under indictment along with dozens of 
journalists for supposedly being a member of the Gulen movement, which 
the government has designated a terrorist organization. The indictment 
gives as evidence of his crime only the fact that he wrote columns for 
a Gulen-affiliated publication. Muhammed Erbey, the former chair of the 
Diyarbakir branch of the Human Rights Association (IHD), was sentenced 
in March to six years in prison for being a member of an illegal 
organization. Raci Bilici, the current chair of the IHD, was detained 
for a week in March and is under investigation for relations with the 
PKK. The Cizre representative of the Human Rights Foundation of Turkey, 
Dr. Serdar Kuni, has been convicted of aiding an armed group for 
performing his duties as a physician during the fighting in that city 
last year.

Conclusion

    What, then, does the presidential referendum mean for Turkey's non-
state institutions of the media and civil society? In a direct legal 
sense, not much. The vulnerabilities of media and civil society before 
the referendum--in the constitution, in legislation, and through the 
post-coup attempt state of emergency that remains in effect--are the 
same as before. The constitution did not address fundamental rights in 
these ways. But there is very little in terms of domestic law and its 
traditional application that has constrained the Turkish state in its 
ability to circumscribe fundamental freedoms.
    In the indirect legal sense, however, the referendum means a lot. 
The weakening of the independence of the judiciary undermines the rule 
of law, which leaves the media and civil society, like ordinary 
citizens, more vulnerable to arbitrary abuses of power. As we have been 
seeing under the state of emergency, when there is no check on 
executive authority, media and civil society will suffer gravely.
    The political ramifications of the referendum are even greater. To 
return to the original distinction I made at the beginning of my 
remarks between thick and thin democracy, President Erdogan and his 
supporters have an extremely ``thin'' conception of democracy. They 
define democracy as voting and nothing else, even to the point of 
disregarding the conditions under which voting occurs, or if there are 
consistent rules of the game for voting. Erdogan and those who support 
him do not see media and civil society as independent institutions that 
should be respected and protected. They see them either as threats, or 
as means to strengthen their control of the state and the society. With 
such a thin definition of democracy now in full ascendance in Turkey, 
the future for media and civil society is grim.


Prepared Statement of Dr. Ebru Erdem-Akcay, Turkish Political Scientist


    The July 2016 coup-attempt only accelerated the ongoing 
authoritarian trajectory in Turkey; it gave the government extra vigor 
in its human right violations. I will illustrate this argument with the 
case of ``Academics for Peace.''
    In June 2015 parliamentary elections, for the first time since 
2002, Justice and Development Party failed to gain enough seats to 
achieve a majority in parliament. The political uncertainty after the 
election contributed to the violent turn that the conflict in the 
Kurdish towns in the southeast took. The ongoing civil conflict evolved 
into urban warfare, which has different dynamics and impact compared to 
rural warfare. Larger numbers of residents were caught in the 
crossfire, tens of thousands had to flee their homes, neighborhoods 
blocks away from the governor's offices were shelled, people trapped in 
their homes under curfews had a hard time finding bread to eat let 
alone ambulance for the wounded.
    Terrible news, heart wrenching images were trickling through to the 
rest of the country. In January 2016, a group of scholars called 
Academics for Peace protested the ongoing violence and called for a 
peaceful solution to the conflict in a peace petition, titled ``We will 
not be a party to this crime.'' The statement demanded an end to the 
ongoing intentional indiscriminate violence and siege in the region, 
identification and punishment of those who violated human rights during 
the sieges, permission of international observers to study and report 
the conditions. They denounced all forms of government suppression on 
the opposition.
    At the time of the declaration on January 11th, 1128 scholars had 
signed the petition. They were women and men who worked as faculty, 
researchers, and doctoral students at public and private universities 
across the country. It would be fair to say that they are all left-
leaning, democratic, progressive individuals, many with activist 
experiences. By the time the petition was closed to signatures on 
January 18th, a total of 2212 scholars, including myself, had signed 
on.
    Right after the public declaration of the petition, the signatories 
became the targets of Erdogan himself, other AKP leaders, the Higher 
Education Council, university administrators, convicted mafia leaders, 
ultranationalist thugs on campuses, and local nationalist and pro-
government media. The signatories faced real threats to their lives and 
security. Their photos were published in local media as traitors, their 
campus office doors were marked with red paint, they received threat 
letters under their office doors. They were threatened with death and/
or rape, insulted, and harassed on social media. They were branded as 
PKK militants, Erdogan himself called them traitors. Mafia leader Sedat 
Peker said he would ``spill their blood in streams and shower in it.''
    Local prosecutors and university administrators started legal and 
disciplinary investigations respectively. All 1411 signatories who 
lived in Turkey at the time are currently subject to criminal 
investigations but they were not told what they are charged with. This 
case is at the investigation stage and has not gone to court yet. Four 
Academics for Peace were held in pretrial detention for a month for 
reiterating the content of the peace petition and outlining the 
retaliation Academics for Peace faced. They are free pending trial and 
their case is ongoing. Fifty-six scholars were briefly detained and had 
their homes and offices searched in the weeks following the declaration 
and the outrage. To this date, there have not been any court decisions 
convicting any signatories with charges related to the peace petition.
    Those Academics for Peace who had contractual positions had their 
contracts terminated soon after. One hundred and twenty-two were 
dismissed, forced to resign or retire. However, it is not as ``easy'' 
to dismiss faculty who have more secure positions, similar to tenure in 
the U.S. Dismissing them involves bureaucratic actions such as 
investigations by a committee, defense statements, and HEC approvals. 
Moreover, these decisions can be appealed and reversed by the courts. 
Between January and July 2016, 505 investigations were ongoing and some 
contract terminations were reversed by the courts.
    The coup-attempt led to the declaration of State of Emergency, 
which has been extended every 3 months ever since. State of Emergency 
rule allows rule by governmental decree, effectively bypassing the 
legislature and bureaucratic regulations. It is through these decrees 
that the government was able to ban hundreds of thousands from public 
service employment and cancel their passports. The 7317 ``purged'' 
academics cannot find employment in any public university and private 
universities refrain from hiring them. Those who were able to secure 
fellowships or visiting positions abroad had to forgo these 
opportunities because they do not have passports anymore. There is no 
legal recourse for the ``purge'' decision, both Higher Administrative 
Court and the Constitutional Court have declined appeals.
    Three hundred seventy two Academics for Peace who could not be 
dismissed through the process required by law were dismissed overnight 
with the cabinet's signatures. Sixty-six of the 484 academics dismissed 
by decree on April 29, 2017 were Academics for Peace. Seven Academics 
for Peace who were recently ``purged'' from Dicle University in 
Diyarbakir, the major province in the southeast, were detained on May 
1st, 2017. There is no expectation of justice anytime soon because the 
judicial system itself is undermined by the purges and it is 
overwhelmed with the large volume of cases.
    The coup-attempt failed but it enabled the government to dismiss 
Academics for Peace, bypassing the required official procedure and to 
punish these dissenters in ways that it could not do under no-State of 
Emergency. It was known from Erdogan's comments in January 2016 that 
these scholars would pay a price for signing the petition, but the 
price was steep and collected more swiftly thanks to the coup-attempt.

Bio: Ebru Erdem-Akcay is a political scientist and Turkey analyst. She 
received her PhD at Stanford University in 2006 and served as an 
Assistant Professor at University of California Riverside until 2013. 
She studies identity politics, ethnic conflict, gender equality, and 
political Islam in Turkey. She is a signatory to the Peace Petition, 
which called on the Turkish government to stop the ongoing violence in 
the Kurdish dominated southeastern Turkey. She has been involved in the 
solidarity efforts among the Academics for Peace, most prominently in 
collecting, organizing, and disseminating the data on administrative 
and legal retaliation against Academics for Peace.



Elections in Turkey: 2017 Constitutional Referendum Frequently Asked
                           Questions
                           
Prepared by the Middle East and North Africa, Europe and Eurasia
   International Foundation for Electoral Systems
   
   


When will the referendum be held?

    The Republic of Turkey will hold a constitutional referendum on 
Sunday, April 16, 2017 while out-of-country voting occurs from March 27 
to April 9, 2017 in 57 countries around the world.
    This will be the sixth constitutional referendum in the country 
since the passage of the 1982 constitution. According to Law 3376 
Concerning Referendum on Constitutional Amendments, the referendum 
should take place on the first Sunday, 60 days after the publication of 
the proposed amendments in the official gazette. The referendum will 
take place amid a state of emergency that was extended following the 
2017 New Year's Eve attack in Istanbul that killed 39 people.

What are the proposed amendments?

    Turkish citizens will vote for or against the referendum package 
which contains 18 amendments to the constitution, the largest number of 
constitutional amendments proposed in a referendum since the creation 
of the Republic of Turkey in 1923. The amendments include the following 
changes: introduction of an executive presidency to replace the 
existing parliamentary system of government; the abolition of the prime 
ministerial office and the cabinet; presidential and parliamentary 
elections schedules so that elections would be held simultaneously 
every five years; increased and broader authority for the president 
over the High Council of Judges and prosecutors; and an increase in the 
number of seats in parliament from 550 to 600.
    While supporters of the reform package believe it will contribute 
to stability through the consolidation of power in the country, critics 
believe that giving extensive powers to the president might damage the 
separation of powers and jeopardize the independence of the judiciary.

Why is this referendum taking place in Turkey?

    The Turkish military passed the current constitution in 1982 
following a coup. Discussions of amending the system from a 
parliamentary system to a presidential system began in 2005 and have 
been an integral component of current president Recep Tayyip Erdogan's 
platform. In December 2016, the ruling Justice and Development Party, 
or Adalet ve Kalkinma Partisi (AKP), along with the Nationalist 
Movement Party, or Milliyetci Hareket Partisi (MHP), who together 
control 353 seats out of the 550 in the Grand National Assembly, 
proposed 21 amendments to the constitution aimed at moving Turkey 
toward a presidential system of governance. The Parliamentary 
Constitutional Committee reviewed the proposed amendments and adopted 
18 of the 21 articles. Following the Parliamentary Constitutional 
Committee's approval, the Grand National Assembly began its review of 
the proposed articles on January 9, 2017. On January 21, 2017, the 
Grand National Assembly voted 339-211 in favor of the 18 proposed 
amendments, meeting the three-fifth (330) constitutionally mandated 
threshold to send the amendments to a referendum. On February 2, the 
parliament sent the approved amendments to President Erdogan for 
approval. The president approved the amendments on February 10 and 
published them in the official gazette. According to the electoral 
legal framework, a referendum must be held on the first Sunday 60 days 
after the publication.

What is the election management body that will manage the referendum 
process?

    The election management body in Turkey is known as the Supreme 
Board of Elections, or Yuksek Secim Kurulu (SBE). The SBE is a 
permanent commission composed of 11 members from the judiciary that are 
elected for a six-year term. Six of the members are elected by the 
General Board of the High Court of Appeals and five of the members are 
elected by the General Board of the Council of State. In addition to 
this central board, the SBE is made up of 81 provincial election boards 
(PEBs), 1,500 district electoral boards (DEBs) and over 167,000 ballot 
box committees (BBCs). According to the Law Concerning Referendums on 
Constitutional Amendments, the SBE is in charge of electoral oversight 
during referenda.

What electoral system will be used to decide on the constitutional 
referendum?
    A simple majority system will be used. The electoral system on the 
constitutional referendum is different from the system that is used for 
elections to the National Assembly. According to Article 8 of Law 3376 
Concerning Referendums on Constitutional Amendments, ``if more than 
half of the valid votes say `yes,' then the constitutional amendment is 
accepted by the Turkish nation.''

Who can vote?

    According to the 1982 constitution, Turkish citizens at least 18 
years of age on the day preceding Election Day and who are on the voter 
list are eligible to vote, with the exception of: active conscripts, 
cadets, and prisoners who have committed intentional crimes regardless 
of the severity. According to Law 3376, all registered voters who do 
not participate in the referendum without a valid excuse will be fined 
12,500 Turkish Liras (about 3,300 USD). While voting is mandatory under 
the Parliamentary Election Law, punishment for those who abstain from 
voting, in the form of a fine, is rarely enforced. The voter registry 
is kept with the Supreme Board of Elections in coordination with the 
Ministry of Interior.

Is out-of-country voting allowed?

    Out-of-country voting will be held at 120 polling stations in 57 
countries. One district electoral board in Ankara will oversee out-of-
country voting and facilitate the counting of these ballots.

When did voter registration take place? 

    Voter registration in Turkey is passive. The permanent central 
voter register is maintained by the Supreme Board of Elections and 
linked to a registry operated by the Ministry of Interior. The registry 
uses personal identification numbers to identify citizens and maintain 
their place of residence.

How many registered voters are there?

    According to the Supreme Board of Elections, the total number of 
registered in-country voters is 55,260,000, while there are 3,000,000 
citizens registered for out-of-country voting. However, due to the 
significant insecurity in the southeast of the country, an estimated 
300,000 people have fled their place of residence and may not be able 
to vote.

What form of voter ID will voters need to bring with them on Referendum 
Day?

    Voters must bring a state-issued form of identification, such as a 
birth certificate or passport, to the polling station where they are 
registered to vote.

Which side are the major parties on (and why)?

    The ``Yes'' campaign is led by the ruling Justice and Development 
Party and the National Movement Party and is supported by the president 
and other public officials. Most of the opposition parties, including 
the Republican People's Party (CHP) and People's Democratic Party 
(HDP), are part of the ``No'' campaign. The ``Yes'' campaign views 
these amendments as critical to a more stable political climate during 
a period of internal and geopolitical frictions due to the ongoing 
Syrian war, refugee crises, and the deterioration of security inside 
the country. The ``Yes'' campaign also believes the reform package will 
significantly improve the democratization process in the country with 
the inclusion of appeals process to judicial authorities, including the 
Constitutional Court. The ``No'' campaign is against the amendments 
which they believe would consolidate the president's authority and, as 
a result, weaken the system of checks and balances that exists under 
the parliamentary system.

What are the rules on campaigning?

    In accordance with Law 298 on the Freedom of Propaganda, 
campaigning began on February 16 and will end on April 15, 2017. During 
this period, additional provisions on campaign activities include 
allocating free airtime to the four political parties and the president 
and banning the use of state resources for campaign purposes.
    Campaigning for this referendum has resulted in allegations by 
opposition parties against the ruling Justice and Development Party for 
abuse of state resources and against the Turkish Radio and Television 
Corporation for biased coverage supporting the ``Yes'' campaign. These 
allegations have created a debate over the role of media in this 
referendum.
    It should be noted that under Article 94A of Law 298, ``electoral 
propaganda'' abroad and at foreign representatives' offices (embassies 
and other diplomatic missions) is not allowed.

What role will media play in the referendum?

    During campaigning, the four political parties and president are 
given free airtime on the state-owned Turkish Radio and Television 
Corporation (TRT).
    Media coverage of the referendum is regulated by the Law on 
Referendum, Law on Broadcasting, the Law on Basic Provisions on 
Elections and Voter Registers, and Supreme Board of Elections (SBE) 
decisions and regulations made before each election. Recently, 
Statutory Decree KHK 687 repealed Electoral Law No. 298, Article 149A, 
thereby removing the penalty for private radio and television channels 
broadcasting in contradiction to the equity principle and electoral 
regulations of the SBE. The Radio and Television Supreme Council is the 
party responsible for ensuring broadcasters are complying with 
regulations, and submits weekly reports to the SBE during the campaign 
period.

What are the rules for campaign finance?

    Turkish electoral law lacks comprehensive campaign financing 
regulations. Campaign finance reports are not publicly available.
    The Law on Political Parties (LPP), the primary legislation 
addressing campaign financing, prohibits political parties and 
candidates from receiving material or in-kind contributions from 
anonymous sources, foreign states, international organizations and 
foreign natural or legal persons. The law also bans corporations with 
government contracts or partial government ownership from donating to 
political parties. The LPP does not ban or limit contributions by 
professional organizations such as public institutions, charities, 
foundations, trade unions or employers' associations to either 
political parties or candidates.
    The LPP also specifies limits on the amounts of donations that can 
be made annually. However, this provision does not contain a limitation 
on the amount that can be donated in relation to a specific election. 
Furthermore, the law only applies to donations made to political 
parties, not to candidates, and it does not apply to some organizations 
such as public institutions, charities, foundations, trade union or 
employers' associations, and the cap on donations is adjusted annually.

How many polling stations are set up on Referendum Day?

    Per the Supreme Board of Elections, there will be over 167,000 
ballot box committees (BBCs). Polling stations will be placed in public 
places such as schools, cafes, and restaurants. Polling stations will 
not be placed in military buildings, police stations, political party 
buildings, or community chief aldermen's offices. The location of 
ballot boxes and polling stations is determined by BBCs with the 
supervision of district electoral boards.

What will the ballots look like and how should they be marked?

    On Election Day, voters will receive a ballot split in two 
inscribed with the word ``Yes'' (or ``Evet'') in black letters on a 
white background on the left side and ``No'' (or ``Hayir'') in black 
letters on a brown background on the right side. Voters must stamp 
their selection on the ballot with a special seal. Voters will vote on 
the amendment package as one block.

What are the polling procedures for the referendum?

    Per Supreme Board of Elections Law 2017/76, polling stations will 
open at 8:00 a.m. and close at 5:00 p.m. on April 16. For security 
reasons, in the cities closer to the Syrian border such as Agri, 
Artvin, Bingol, Bitlis, Diyarbakir, Elazig, Erzincan, Erzurum, 
Gaziantep, Giresun, Gumushane, Hakkari, Kars, Malatya, Kahramanmaras, 
Mardin, Mus, Ordu, Rize, Siirt, Sivas, Trabzon, Tunceli, Sanliurfa, 
Van, Bayburt, Batman, Sirnak, Ardahan, Igdir and Kilis, polling 
stations will operate between 7:00 a.m. and 4:00 p.m. Voters in line at 
closing time will be allowed to cast their votes.
    Once admitted to the polling station by the chairman of a ballot 
box committee, voters will present their voter identification 
documents. The chairman will find the voter's name on the voter list, 
give the voter a ballot paper, explain to the voter how to cast his/her 
vote and guide the voter to the voting booth. Once the voter has made a 
selection and sealed the ballot paper into the envelope, the voter will 
exit the voting booth and insert the envelope into the ballot box to 
which they are assigned in the voter registry. The chairman will then 
return the voter's identification document to him/her and have the 
voter sign the box adjacent to the voter's name on the voter list and 
mark his/her left index finger with indelible ink.

How will voters with disabilities cast their ballots?

    Per the Law on Basic Provisions on Elections and Voter Registers, 
any disability that would prevent a voter from casting their vote will 
be noted during voter registration. Voters with disabilities will be 
assigned to accessible polling stations when the voter registry is 
announced. The number of accessible polling stations is determined by 
the Supreme Board of Elections based on the number of voters with 
disabilities in the voter registry. If needed, voters must apply to 
transfer to an accessible polling station if they are not initially 
assigned to one during the voter registration period. There is no 
public transportation program or absentee voting system to allow voters 
with disabilities to cast their ballots at home.
    At the voting station, the ballot box committees will take measures 
to ensure voters with disabilities ease of access to polling stations 
and ballot boxes. Additionally, voters with physical disabilities may 
be accompanied into the booth by a relative who votes in the same 
electoral district, or, in the absence of a relative, by any other 
voter willing to provide assistance. Additionally, if a disability 
prevents a voter from signing the box adjacent to their name on the 
voter list, they may alternatively use their fingerprint, marked with 
indelible ink, as a signature in the signature box.

Are there any special provisions to assist illiterate voters to cast 
their ballots?

    Article 33 of Decree 135/1 on Ballot Box Committees [BBC] Duties 
and Powers during the Referendum states that if an illiterate voter 
seeks help, only the chairperson of the BBC can explain the procedures 
on the ballot itself. Other than that, no other BBC can interfere and 
offer assistance. In this referendum, the ballot will contain two 
colors: ``Yes'' has a white background color while ``No'' has a brown 
background. The Supreme Board of Elections has also produced voter 
information posters with drawings detailing how to correctly vote.

Where are voting, counting and tabulation held?

    Following voting, vote counting and tabulation will commence at the 
ballot box committees (BBCs). Ballot, district and provincial election 
board minutes should include the number of registered voters on the 
voter list, the number of citizens who voted in the referendum, the 
number of valid and invalid votes, and the number of voters who voted 
``Yes'' and ``No'' to the referendum. Provincial electoral boards 
(PEBs) will gather minutes from the district electoral boards (DEBs) 
and deliver the results and a copy of the approved minute to the 
Supreme Board of Elections (SBE). The latter will then gather and 
declare the results.
    All contents of the ballot boxes should be signed, sealed, and 
delivered to DEBs, who will conduct the same process in the presence of 
election observers. Once a DEB has counted the votes from all polling 
stations in its jurisdiction, the chairman of each DEB will deliver the 
results to PEBs. A copy of the results will be delivered to each of the 
political parties and to observers of independent candidates upon 
request, and a copy of the results will be posted on the front door of 
the DEB offices for one week. This process will be followed by each 
PEB, which will combine the ballots from the county election boards, 
count the ballots, post the results for one week, and send the results 
to the SBE for announcement and finalization. Any complaints or 
objections lodged during counting and tabulation will be recorded in 
the minutes and passed along with the ballots to each level of review.

When will official results be announced?

    Once preliminary results have been received from provincial 
election boards, the Supreme Board of Elections shall promptly announce 
whether the proposed amendments were accepted or not publicly through 
radio, TV and the Official Gazette.

Who will observe during Referendum Day?

    There are no legal provisions related to domestic or international 
observation of referendum. Political party representatives are allowed 
to observe Referendum Day proceedings. The Parliamentary Assembly of 
the Council of Europe will send a delegation to observe the referendum 
while the Organization for Security and Co-operation in Europe's Office 
for Democratic Institutions and Human Rights will also deploy a limited 
referendum observation mission.

Can referendum results be contested?

    Referendum results can be challenged via objection and complaint. 
Complaints are challenges to election procedures conducted by election 
boards, while objections are stated or written challenges to either 
election results or to rulings handed down on complaints. The Supreme 
Board of Elections (SBE) is the only body responsible for examining all 
referendum/election-related disputes and its decisions cannot be 
appealed. Objections are adjudicated by the highest level of election 
board overseeing the jurisdiction in which an objection is raised. In 
other words, an objection to results announced by a ballot box 
committee (BBC) is adjudicated by a district electoral board (DEB); an 
objection to results announced by a DEB will be adjudicated by a 
provincial election board (PEB); and an objection to results announced 
by a PEB will be adjudicated by the SBE. Objections and complaints that 
are adjudicated by the SBE are considered final and cannot be appealed 
to a different judicial authority. The 2010 constitutional changes 
introduced the right to file individual petitions at the level of the 
Constitutional Court.
                                        
                                        <F-dash>
Resources

    <bullet>   Constitution of the Republic of Turkey
    <bullet>  Decree 135/1 on Ballot Box Committees' Duties and Powers 
during the Referendum (Turkish)
    <bullet>  International IDEA Political Finance Database: Turkey
    <bullet>   Law on Basic Provisions on Elections and Voter Registers 
(Turkish)
    <bullet>   Law Concerning Referendums on Constitutional Amendments
    <bullet>   Law on Political Parties
    <bullet>   Organization for Security and Co-operation in Europe's 
Office for Democratic Institutions and Human Rights Needs Assessment 
Mission Report, 22-24 February 2017
    <bullet>   Parliamentary Elections Law (Turkish)
    <bullet>   Supreme Board of Elections

                                [all]
                                
                                
                                

 

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                                  * * * 

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                                  * * * 


           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                                  * * * 

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
